No. 20-8
IN THE

Supreme Court of the United States
DEUTSCHE BANK TRUST COMPANY AMERICAS, et al.,
Petitioners,
v.
ROBERT R. MCCORMICK FOUNDATION, et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUPPLEMENTAL BRIEF FOR RESPONDENTS

JOEL MILLAR
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006

PHILIP D. ANKER
Counsel of Record
ALAN E. SCHOENFELD
RYAN M. CHABOT
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
New York, NY 10007
(212) 230-8890
philip.anker@wilmerhale.com

Counsel for Respondents SAL Equity Trading GP (f/k/a
Susquehanna Capital Group), et al.
COMPLETE LIST OF PARTIES REPRESENTED
BY COUNSEL IN APPENDIX

CORPORATE DISCLOSURE STATEMENT
In its Brief in Opposition to the Petition filed August 2020, respondents included a Corporate Disclosure
Statement. To the knowledge of counsel for the respondents, that Statement remains accurate, subject to
the following revisions:
Barclays Capital Inc. identifies the following as
parent corporations or publicly held corporations that
own 10% or more of any class of its equity interests:
Barclays Group US Inc., Barclays US LLC, Barclays
US Holdings Limited, Barclays Bank PLC, and Barclays PLC. No other publicly traded company owns
10% or more of Barclays Capital Inc.’s stock.
Bear Stearns Asset Management Inc. is an indirect,
wholly owned subsidiary of JPMorgan Chase & Co., a
publicly held corporation. JPMorgan Chase & Co. does
not have a parent corporation and no publicly held corporation owns 10% or more of its stock. However, The
Vanguard Group, Inc., an investment adviser which is
not a publicly held corporation, has reported that registered investment companies, other pooled investment
vehicles and institutional accounts that it or its subsidiaries sponsor, manage or advise have aggregate ownership under certain regulations of 10% or more of the
stock of JPMorgan Chase & Co.
Bear Stearns Equity Strategies RT LLC merged
into Bear Stearns Equity Holdings Inc., effective September 30, 2019. Bear Stearns Equity Holdings Inc. is
an indirect, wholly owned subsidiary of JPMorgan
Chase & Co., a publicly held corporation. JPMorgan
Chase & Co. does not have a parent corporation and no
publicly held corporation owns 10% or more of its stock.
However, The Vanguard Group, Inc., an investment
(i)

adviser which is not a publicly held corporation, has reported that registered investment companies, other
pooled investment vehicles and institutional accounts
that it or its subsidiaries sponsor, manage or advise
have aggregate ownership under certain regulations of
10% or more of the stock of JPMorgan Chase & Co.
BMO Nesbitt Burns Inc. states that it is a wholly
owned subsidiary of BMO Nesbitt Burns Holdings
Corporation, which in turn is wholly owned by Bank of
Montreal Holding Inc., which is wholly owned by the
Bank of Montreal. Bank of Montreal is a publicly traded bank, incorporated under the Bank Act. No publicly
held corporation owns 10% or more of the stock of the
Bank of Montreal.
Great-West S&P 500 Index Fund f/k/a Maxim S&P
500 Index Portfolio is a series of Great-West Funds,
Inc., f/k/a Maxim Series Fund, Inc., and are not publicly
traded corporations. Great-West Life & Annuity Insurance Company is the parent of Great-West Funds,
Inc. No publicly-held corporation owns 10% or more of
the stock of Great-West S&P 500 Index Portfolio.
Great-West Stock Index Fund f/k/a Maxim Stock
Index Portfolio is a series of Great-West Funds, Inc.,
f/k/a Maxim Series Fund, Inc., and are not publicly
traded corporations. Great-West Life & Annuity Insurance Company is the parent of Great-West Funds,
Inc. No publicly-held corporation owns 10% or more of
the stock of Great-West Stock Index Fund.
JPMorgan Chase 401(k) Savings Plan is an ‘‘employee pension benefit plan’’ as defined by the Employee Retirement Income Security Act, income from which
is exempt from federal income tax under Section 501(a)
of the Internal Revenue Code, and is sponsored by
JPMorgan Chase Bank, N.A., a wholly owned subsidi(ii)

ary of JPMorgan Chase & Co., a publicly held corporation. JPMorgan Chase & Co. does not have a parent
corporation and no publicly held corporation owns 10%
or more of its stock. However, The Vanguard Group,
Inc., an investment adviser which is not a publicly held
corporation, has reported that registered investment
companies, other pooled investment vehicles and institutional accounts that it or its subsidiaries sponsor,
manage or advise have aggregate ownership under certain regulations of 10% or more of the stock of JPMorgan Chase & Co.
JPMorgan Trust II is an open-end, management
investment company organized as a Delaware statutory
trust. JPMorgan Trust II has no parent corporation.
JPMorgan Trust II issues shares of beneficial interest
in series, with each series corresponding to a separate
fund; the relevant fund is JPMorgan Equity Index
Fund. As of March 30, 2021, no publicly held corporation owns, of record, ten percent or more of any class of
shares of the JPMorgan Equity Index Fund for its own
benefit, except that JPMorgan SmartRetirement Blend
2030 Fund, JPMorgan SmartRetirement Blend 2035
Fund, JPMorgan SmartRetirement Blend 2040 Fund
and JPMorgan SmartRetirement Blend 2045 Fund do
own more than ten percent of one of the JPMorgan Equity Index Fund’s class of shares.
J.P. Morgan Whitefriars, Inc. (n/k/a J.P. Morgan
Whitefriars LLC) is an indirect, wholly owned subsidiary of JPMorgan Chase & Co., a publicly held corporation. JPMorgan Chase & Co. does not have a parent
corporation and no publicly held corporation owns 10%
or more of its stock. However, The Vanguard Group,
Inc., an investment adviser which is not a publicly held
corporation, has reported that registered investment
companies, other pooled investment vehicles and insti(iii)

tutional accounts that it or its subsidiaries sponsor,
manage or advise have aggregate ownership under certain regulations of 10% or more of the stock of JPMorgan Chase & Co.
L3Harris Retirement Savings Plan Master Trust,
f/k/a Harris Corporation Master Trust, states that it
has no parent corporation and no publicly held corporation owns 10% or more of its stock.
Manulife Investment Exchange Funds Corp. (f/k/a
Manulife Invst Ex FDS Corp.-MIX) states that it is a
wholly owned subsidiary of Manulife Investment Exchange Funds Corp.
Maxim Foreign Equity Portfolio is a series of Maxim Series Fund, Inc., and is not a publicly traded corporation. Great-West Life & Annuity Insurance Company is the parent of Maxim Series Fund, Inc., and is also
not publicly traded. No publicly held company holds
10% or more of Great-West Life & Annuity Insurance
Company.
Maxim Midcap Portfolio is a series of Maxim Series
Fund, Inc., and is not a publicly traded corporation.
Great-West Life & Annuity Insurance Company is the
parent of Maxim Series Fund, Inc., and is also not publicly traded. No publicly held company holds 10% or
more of Great-West Life & Annuity Insurance Company.
Maxim Series Fund, Inc. states that Great-West
Life & Annuity Insurance Company is the parent of
Maxim Series Fund, Inc. No publicly held company
holds 10% or more of Great-West Life & Annuity Insurance Company.

(iv)

Reed Elsevier Inc. (now known as RELX Inc.)
states that its ultimate parent company is RELX PLC,
which is a publicly traded company.
Russell Investments Group, LLC (incorrectly
named as ‘‘Russell Investment Group’’) states that it is
a wholly owned subsidiary of Russell Investments U.S.
Institutional Holdco, Inc., whose ultimate parent company is Russell Investments Group, Ltd., a Cayman Islands company.
Russell Investments Trust Company (f/k/a Frank
Russell Trust Company) states that it is a wholly
owned subsidiary of Russell Investments US Institutional Holdco, Inc., whose ultimate parent company is
Russell Investments Group, Ltd., a Cayman Islands
company.
Scotia Capital Inc. states that it is owned entirely
by The Bank of Nova Scotia, a publicly held foreign
bank chartered under the Bank Act (Canada), duly organized and existing under the laws of Canada, having
its Head Office in Halifax in the Province of Nova Scotia, Canada, and its Executive Offices in Toronto in the
Province of Ontario, Canada. No publicly held corporation owns 10% or more of The Bank of Nova Scotia’s
equity interests.
Scotia Capital (USA) Inc. states that it is a wholly
owned subsidiary of Scotia Holdings (US) Inc., whose
ultimate parent is The Bank of Nova Scotia, a publicly
held foreign bank chartered under the Bank Act (Canada), duly organized and existing under the laws of
Canada, having its Head Office in Halifax in the Province of Nova Scotia, Canada, and its Executive Offices
in Toronto in the Province of Ontario, Canada. No publicly held corporation owns 10% or more of The Bank of
Nova Scotia’s equity interests.
(v)

Susquehanna Capital Group has changed its name
to SAL Equity Trading GP, and is owned 99.9% by
SAL Equity Holding, LLC and 0.1% by SAL Equity
Partner, LLC. No publicly held corporation owns 10%
of more of the stock of any of these entities.
Susquehanna Investment Group is owned 99.9% by
Susquehanna International Group, LLP and 0.1% by
Bodel, Inc. No publicly held corporation owns 10% of
more of the stock of any of these entities.
The corporate disclosure for respondent SIG-SS
CBOE Joint Account set forth in the Brief in Opposition remains accurate aside from the changes to Susquehanna Investment Group described above.
Transamerica Life Insurance Company’s (‘‘TLIC’’)
(f/k/a Transamerica Premier Life Insurance Company,
f/k/a Monumental Life Insurance Company) sole shareholder is Commonwealth General Corporation (‘‘Commonwealth’’). Commonwealth’s sole shareholder is
Transamerica Corporation. TLIC, Commonwealth, and
Transamerica Corporation are indirect subsidiaries of
AEGON N.V., which is a publicly traded holding company with its headquarters in The Hague, the Netherlands. American Depository Receipts of AEGON N.V.
are also listed on the New York Stock Exchange under
the ticker symbol AEG.
UBS Asset Management (Americas) Inc., formerly
known as UBS Global Asset Management (Americas)
Inc., states that it is a wholly owned subsidiary of UBS
Americas Inc., which is wholly owned by UBS Americas Holding LLC, which is wholly owned by UBS AG,
which is wholly owned by UBS Group AG, a publicly
traded corporation. No publicly held corporation owns
10% or more of UBS Group AG stock.

(vi)

MUFG Union Bank N.A., formerly known as Union
Bank, N.A., states that it is a wholly owned subsidiary
of MUFG Americas Holdings Corporation, which in
turn is 99% owned by MUFG Bank, Ltd., and 1%
owned by Mitsubishi UFJ Financial Group. MUFG
Bank, Ltd. is a wholly owned subsidiary of Mitsubishi
UFJ Financial Group.

(vii)

TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT .............. i
TABLE OF AUTHORITIES ............................................. x
CONCLUSION .................................................................... 7
APPENDIX: Complete List of Parties Represented by Counsel ...................................................... 1a

(ix)

x
TABLE OF AUTHORITIES
CASES
Page(s)
California v. Rooney, 483 U.S. 307 (1987) ....................... 1
Chevron, U.S.A., Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837 (1984) ............... 1
Merit Management Group, LP v. FTI
Consulting, Inc., 138 S. Ct. 883 (2018) ...................... 2
Roberts v. Wachovia Bank, N.A., 2010 WL
3629591 (S.D.N.Y. Sept. 16, 2010) .............................. 6
DOCKETED CASES
In re Nine West LBO Securities Litigation,
Nos. 20-3257-cv(L), -3920, -3315, -3326, -3327,
-3334, -3335, -3941, -3952, -3959, -3961, -3964,
-3969, -3980, -3981, -3992, -3998 (2d Cir.) .................. 3
In re Tribune Co. Fraudulent Conveyance
Litigation, No. 13-3992 (2d Cir.) ................................ 4
STATUTORY PROVISIONS
11 U.S.C.
§101 ............................................................................. 5, 6
§544 ................................................................................. 3
§546 ......................................................................... 2, 3, 4
28 U.S.C. §1409 .................................................................... 3

The United States’ brief demonstrates why the petition should be denied.
1. The United States is correct that the first
question presented does not warrant review. That
question concerns whether there should be any presumption against preemption in bankruptcy cases. As
the United States explains, the “alleged conflict” between the Second Circuit’s supposed holding and the
decisions of four other courts of appeal is “illusory.”
U.S. Br. 7, 17-18.
The purported “holding” of the Second Circuit to
which petitioners point is no holding at all. The court
simply remarked in a single sentence that the Bankruptcy Code effects a “wholesale preemption” of creditors’ state-law rights. Pet. App. 34a. That sentence
was correct in the narrow context in which the Second
Circuit wrote it—namely, that when a debtor files for
bankruptcy, federal bankruptcy law imposes an “automatic stay” on all state-law creditor collection actions,
including fraudulent transfer actions, and gives the
bankruptcy trustee the exclusive right to pursue such
claims. Id. 34a-35a.
In any event, this Court reviews judgments, not a
stray sentence in an opinion. See, e.g., California v.
Rooney, 483 U.S. 307, 311 (1987) (per curiam); Chevron
U.S.A. Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837, 842 (1984). The judgment of the Second Circuit does not merit review. The court’s full
opinion makes clear that the Second Circuit acknowledged the “recognized presumption against preemption” and merely concluded that the presumption carried less “weight” in “the present matter,” which involves a long “history of significant federal presence” in
the regulation of creditor rights in bankruptcy and the

2
securities markets, rather than an “area recognized as
traditionally one of state law alone.” Pet. App. 33a-36a
(emphasis added). As the United States observes, “the
Second Circuit’s articulation of the applicable preemption standard does not appear to conflict with the holding of any other court of appeals.” U.S. Br. 18; see also
Opp. 8-10, 15-20.
Even if the Second Circuit had articulated the law
on preemption differently from how other courts of appeals have, this case would present a poor vehicle to
review any “abstract differences” in the courts’ approach to this area of law. As the United States recognizes, the “presumption is not outcome-determinative
here.” U.S. Br. 18-19; see also Opp. 20.
2. The United States is also correct that the second question presented is not worthy of review. That
question concerns the Second Circuit’s determination
that, on the facts of this case, Bankruptcy Code §546(e)
preempted the creditors’ state-law fraudulent transfer
claims to recover the safe-harbored payments Tribune
made to acquire their stock. As the United States
notes (Br. 16), the Second Circuit’s holding does not
conflict with the decision of any other court of appeals,
or with this Court’s decision in Merit Management
Group, LP v. FTI Consulting, Inc., 138 S. Ct. 883
(2018). U.S. Br. 7, 15-17; Opp. 20-22.
Even if the question recurs with any frequency in
other cases (something the United States doubts (Br.
16)), the Court should wait until additional courts of
appeals have addressed the question before considering
whether to review the issue. The amicus brief it filed in
this case is the first occasion in which the United States
has addressed that question. Litigants have begun to

3
cite the United States’ brief.1 Petitioners counter that
the issue is likely to arise only, or at least predominantly, in the Second Circuit, but their own supplemental
brief (4-5, 10) cites cases regarding §546(e) in lower
courts in the Third and Sixth Circuits. Percolation in
the circuits could afford the Court the benefit of further
development and consideration of the question.
For example, the United States urges that any conflict between the bankruptcy trustee’s administration
of the bankruptcy case and creditors’ pursuit of statelaw fraudulent-transfer claims can be addressed
through the Bankruptcy Code’s automatic-stay provision, rather than preemption. U.S. Br. 9-15. But Section 546(e) bars creditors’ state-law fraudulent-transfer
claims to avoid certain securities transfers in the hands
of the bankruptcy trustee, the only party authorized by
Congress to bring any such claims upon the filing of a
federal bankruptcy case and the creditors’ statutory
“successor” and representative in bankruptcy. See 11
U.S.C. §§544(b)(1), 546(e); 28 U.S.C. §1409(c). In this
case, the creditors’ committee, standing in the trustee’s
shoes, deliberately consented to the lifting of the stay
and relinquished the trustee’s authority to bring such
fraudulent-transfer claims so that the creditors (petitioners) could seek to bring the same claims under state
law that §546(e) barred the trustee from bringing on
their behalf, in what the Committee admitted was a
conscious attempt to “end run” the safe harbor. Opp. 56. Recognizing this, the Securities and Exchange
Commission filed an amicus brief in the Second Circuit
1

See, e.g., FRAP 28(j) Letter, In re Nine West LBO Sec.
Litig., Nos. 20-3257-cv(L), -3920, -3315, -3326, -3327, -3334, -3335, 3941, -3952, -3959, -3961, -3964, -3969, -3980, -3981, -3992, -3998 (2d
Cir. Mar. 19, 2021), Dkt. No. 247.

4
in this case arguing that if petitioners’ “work around” of
the Bankruptcy Code’s safe harbor were to succeed,
other creditors in other bankruptcy cases could adopt
the same approach and §546(e)’s protection of the securities markets would be undermined.2
Waiting to see whether creditors continue seeking
to circumvent the safe harbor, and, if so, allowing other
courts of appeals to address the preemption question in
light of the further experience provided by other cases,
will sharpen the issue. And if this Court’s review of the
issue will be needed at all, the Court will then be able to
examine the question in a case that does not present
potential recusal problems, as this one does. See Opp.
29-32.
Moreover, there is an alternative ground for affirmance in this case, independent of preemption. The
Second Circuit considered respondents’ additional argument for dismissal of petitioners’ claims—that, under
long-standing precedent and as a matter of statutory
construction, petitioners’ state-law fraudulent-transfer
claims vested in the bankruptcy trustee upon the bankruptcy filing and never “reverted” to petitioners free
and clear of §546(e)’s safe harbor—but ultimately did
not decide that question because it held that §546(e)
preempted petitioners’ claims in any event. Opp. 27-29.
This, too, counsels in favor of denying the petition.
3. Finally, the United States is correct that the
third question presented also does not warrant this
Court’s review. That question presents an isolated issue of statutory construction that turns on an unusual
definition found only in the Bankruptcy Code and on
2

See SEC Br. 2-3, In re Tribune Co. Fraudulent Conveyance
Litig., No. 13-3992 (2d Cir.), Dkt. No. 161.

5
the particular circumstances of the transaction at issue:
whether Tribune was a “financial institution” under
Bankruptcy Code §101(22) in that it was a “customer”
of a bank (Computershare) that was acting as “agent”
for Tribune “in connection with a securities contract.”
11 U.S.C. §101(22).
As the United States notes, very few cases have
considered the “customer” prong of this statutory definition, and the Second Circuit’s decision below did not
split from that of any other Circuit. U.S. Br. 21-22.
The Second Circuit construed the definition in a manner that is faithful to this Court’s precedents: by construing terms in the definition that are themselves defined elsewhere in the Code in accordance with those
definitions (“securities contract”) and by construing
other terms that are not so defined but have wellestablished common law meanings (“agent”) in accordance with those meanings. See Pet. App. 22a-30a; Opp.
13-14. While the United States posits (at 7, 19-21) that
this reading is “questionable,” its musings are not
based on any analysis of the definition’s text.
Although recognizing that this question is not worthy of review, and that Merit Management “expressly
declined” to address the “customer” prong in the definition of the term “financial institution” (U.S. Br. 20), the
United States suggests that the Second Circuit’s holding could render Merit Management a “virtual nullity.”
Id. 19. But this speculation, like that offered by petitioners regarding the implications of the Second Circuit’s decision, is just that—speculation—and illustrates why this case would be a poor vehicle to consider
the question presented.
The Bankruptcy Code includes a customer of a
bank within the definition of a “financial institution”

6
only if the bank acts as “agent” for the customer “in
connection with a securities contract.” 11 U.S.C.
§101(22). Here, Computershare contracted with Tribune specifically to act as its agent in connection with
Tribune’s contract to acquire the stock held by its public shareholders. Computershare agreed to take Tribune’s money and, acting on Tribune’s behalf, to pay it
out to Tribune’s shareholders in return for the surrender and cancellation of their shares. That is quite different from the far more limited role of a drawee bank
in processing checks or wire transfers, a role that has
been held not to create a principal-agent relationship.
See, e.g., Roberts v. Wachovia Bank, N.A., 2010 WL
3629591, at *3 (S.D.N.Y. Sept. 16, 2010). Nothing in the
Second Circuit’s decision in this case would make a
bank the “agent” of a customer “in connection with a
securities contract” merely because it processed a
check or wire transfer used to buy stock or bonds. If a
future case nevertheless treats the customer prong of
the Code’s definition of “financial institution” as satisfied simply because a bank processes a check or wire
transfer for a depositor, the Court can consider whether to review such a case. This case simply does not present that issue, and it would be premature to address it
in any event, as the government recognizes.
*

*

*

*

*

Petitioners thus offer no valid reason that the questions presented warrant the Court’s attention in this
case and at this time. Indeed, perhaps aware of that
fatal flaw, petitioners suggest that the Court should
summarily reverse or take other unprecedented
measures based on the amicus brief of the United
States. Pet. Supp. Br. 11-12. But those extraordinary
requests simply underscore that what petitioners seek
is error correction. That alone does not warrant this

7
Court’s review, and in any event the Second Circuit’s
decision is correct.
CONCLUSION
For these reasons and those set forth in respondents’ brief in opposition to the petition, the petition
should be denied.
Respectfully submitted.
MARK A. NEUBAUER
CARLTON FIELDS , LLP
2029 Century Park East
Suite 1200
Los Angeles, CA 90067
Counsel for The Alfred W.
Merkel Marlowe G. Merkel
Trust UA 11 Sept 85, et al.

PHILIP D. ANKER
Counsel of Record
ALAN E. SCHOENFELD
RYAN M. CHABOT
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
New York, NY 10007
(212) 230-8890
philip.anker@wilmerhale.com

ELLIOT MOSKOWITZ
DAVIS POLK &
JOEL MILLAR
WARDWELL LLP
WILMER CUTLER PICKERING
450 Lexington Avenue
HALE AND DORR LLP
New York, NY 10017
1875 Pennsylvania Ave., NW
Counsel for Bear Stearns
Washington, DC 20006
Asset Management, Inc., et al. Counsel for Respondents
SAL Equity Trading GP
(f/k/a Susquehanna Capital Group), et al.

8
MICHAEL S. DOLUISIO
SABIN WILLETT
STUART T. STEINBERG
MICHAEL C. D’AGOSTINO
DECHERT LLP
MORGAN LEWIS
Cira Centre
& BOCKIUS LLP
2929 Arch Street
One Federal Street
Philadelphia, PA 19104-2808 Boston, MA 02110
Counsel for Aegon/
Counsel for Aetna, Inc., et al.
Transamerica Series Fund
DANIEL L. CANTOR
– TRP, et al.
DANIEL S. SHAMAH
ANDREW J. ENTWISTLE
O’MELVENY & MYERS LLP
ENTWISTLE & CAPPUCCI LLPTimes Square Tower
299 Park Avenue
7 Times Square
20th Floor
New York, NY 10036
New York, NY 10171
Counsel for Bank of AmerCounsel for GAMCO Asset ica, N.A., et al.
Management, Inc., The
Public Employees’ Retire- DAVID N. DUNN
ment Association of Colora- PHILLIPS, DUNN, SHRIVER
do, and The State Universi- & CARROLL, P.C.
ties Retirement System of 147 Western Avenue
Illinois
Brattleboro, VT 05301
Counsel for Ciri Gillespie, et
MATTHEW D. MCGILL
al.
OSCAR GARZA
DOUGLAS LEVIN
KANNON K. SHANMUGAM
GIBSON, DUNN &
PAUL, WEISS, RIFKIND,
CRUTCHER LLP
WHARTON & GARRISON
1050 Connecticut Ave., NW
LLP
Washington, DC 20036
2001 K STREET, N.W.
Counsel for Chandler
WASHINGTON, DC 20006
Trust No. 1 & Chandler
Trust No. 2, et al.

9
MATTHEW L. FORNSHELL ANDREW G. GORDON
ICE MILLER LLP
PAUL, WEISS, RIFKIND,
250 West Street
WHARTON & GARRISON
Columbus, OH 43215
LLP
Counsel for Illinois Munic- 1285 AVENUE OF THE
ipal Retirement Fund, et AMERICAS
NEW YORK, NY 10019
al.
Counsel for Citibank, N.A.
JOEL W. STERNMAN
et al.
KATTEN MUCHIN
ROSENMAN LLP
STEPHEN L. RATNER
575 Madison Avenue
DAVID A. PICON
New York, NY 10022
RUSSELL T. GORKIN
Counsel for Barbara Alter PROSKAUER ROSE LLP
11 Times Square
(individually), et al.
New York, NY 10036
ALAN J. STONE
Counsel for 1199SEIU
ANDREW M. LEBLANC
Health Care Employees
MILBANK LLP
Pension Fund, et al.
55 Hudson Yards
New York, NY 10001
DOUGLAS HALLWARDCounsel for Amalgamated DRIEMEIER
Bank, et al.
ROPES & GRAY LLP
2099 Pennsylvania Ave., NW
ERIN MURPHY
Washington, DC 20006-6807
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW Counsel for APG Asset
Management US Inc.
Washington, DC 20004
F/K/A ABP Investments
GABOR BALASSA
US, Inc. (incorrectly
KIRKLAND & ELLIS LLP named as ABP), et al.
300 North LaSalle
Chicago, IL 60654
Counsel for Cantigny
Foundation & Robert R.
McCormick Foundation

10
GARY STEIN
WILLIAM H. GUSSMAN, JR.
SCHULTE ROTH & ZABEL LLP
919 Third Avenue
New York, NY 10022
Counsel for Adage Capital
Advisors Long, et al.

COMPLETE LIST OF PARTIES REPRESENTED
BY COUNSEL IN APPENDIX

APRIL 2021

APPENDIX

1a
COMPLETE LIST OF PARTIES
REPRESENTED BY COUNSEL
PHILIP D. ANKER
Counsel of Record
ALAN E. SCHOENFELD
RYAN M. CHABOT
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
New York, NY 10007
(212) 230-8890
philip.anker@wilmerhale.com
JOEL MILLAR
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
Counsel for Respondents SAL Equity Trading GP
(f/k/a Susquehanna Capital Group), Susquehanna Investment Group, and Susquehanna Investment Group
as custodian of the SIG-SS CBOE Joint Account
MARK A. NEUBAUER
CARLTON FIELDS, LLP
2029 Century Park East
Suite 1200
Los Angeles, CA 90067
Attorneys for Defendants ACT, Inc. Large-Cap Value
Fund; Richard H. Askin, Carol Askin, Askin Family
Trust; Axelson Fam. Limited Partnership, Stephen Axelson, Linda Axelson; The Paul and Kathleen Bissinger
Revocable Trust dated September 30, 1987, as amended,
Paul A. Bissinger, Jr., Kathleen B. Bissinger, Trustees;

2a
Mark C. Boe Trust U/A DTD 07/20/2000, Mark C. Boe,
Trustee; Jason H. Camassar; Carolyn I. Camassar;
Terrill F. Cox & Lorraine M. Cox Trust U/A DTD
3/31/98; Jeanette Day Family Trust U/A DTD
10/04/1994; Peter J. Fernald, as Trustee of The Peter J.
Fernald Trust U/A 1/13/92; The Peter J. Fernald Trust
U/A 1/13/92; Evelyn A. Freed Trust U/A/D 03/26/90
Brandes-All Cap Value; Debra A. Gastler; Richard L.
Goldstein; Leonidia Gonsalves; Gulley Family Trust
U/A 7/27/00, Patsy J. Gulley, Trustee; Charles W.
Hammond Trust, James P. Hammond, Trustee; Muriel
S. Harris; Matthew Gerard Hartmann and Lisa Marie
Hartmann JTWROS, Jim Hicks, as Trustee of the Jim
Hicks & Co. Employee Profit-Sharing Plan; Mark Allen Itkin; Jason A. Janik; Emil Kratochvil; Darell F.
Kuenzler; Darell F. Kuenzler IRA; Chase L. Leavitt, as
Trustee of the Philip B. Chase Revocable Trust Dated
07/28/94; Douglas M. & Judith A. Light Rev. Trust, D.
Light & J. Light, Trustees; Robert C and Nancy Lobdell
Family Trust UA 08/20/96, Nancy Lobdell, Trustee;
Raymond M. Luthy Trust; Philip V. Mann; Susan J.
Martin, individually, and as Beneficiary of the Estate of
Shirley J. Sperling; Lawrence Marwill, MSSB, Custodian; Jack E. Meadows; Jane D. Meadows; Marlowe G.
Merkel, as Trustee of The Alfred W. Merkel Marlowe G.
Merkel Trust UA 11 Sept 85; The Alfred W. Merkel
Marlowe G. Merkel Trust UA 11 Sept 85; Renee H. Miller; Robert N. Mohr, Successor Trustee to Joseph B.
Mohr, as Trustee of the J&M Trust UA Dated
07/23/1992; Durham J. Monsma; Robbie E. Monsma;
Miles Adrian Collet Murray; OMA OPA LLC; Denise
Palmer Revocable Trust U/A/D 10-28-1991, Denise E.
Palmer, Trustee; John Patinella; Posen Family Limited
Partnership; Myrna Ramirez and Monserrate Ramirez
JTWROS; Javad Rassouli; Reichhold, Inc.; Robert H.
Ricciardi and Cher Dellin Ricciardi; Cindy L.

3a
Schreuder IRA Rollover, Charles Schwab & Co. Inc.,
Custodian; Jack V. Secord IRA, FCC, Custodian (Pilot
Plus); Marlene F. Slade Rollover IRA, National Financial Services LLC/Fidelity Management Trust Co.,
Custodian; William F. Thomas; Kuang C. Yeh IRA
Rollover Fidelity Management Trust Co. Cust.
ERIN MURPHY
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
GABOR BALASSA
KIRKLAND & ELLIS LLP
300 North LaSalle
Chicago, IL 60654
Counsel for Cantigny Foundation & Robert R. McCormick Foundation
ELLIOT MOSKOWITZ
DAVIS POLK &
WARDWELL LLP
450 Lexington Avenue
New York, NY 10017
Counsel for Bear Stearns Asset Management, Inc.;
Bear Stearns Equity Strategies RT LLC; JPMorgan
Chase 401(k) Savings Plan; JPMorgan Trust II; and
J.P. Morgan Whitefriars, Inc.
MICHAEL S. DOLUISIO
STUART T. STEINBERG
DECHERT LLP
Cira Centre

4a
2929 Arch Street
Philadelphia, PA 19104-2808
Counsel for Aegon/Transamerica Series Fund – TRP;
Board of Trustees of the Colleges of Applied Arts and
Technology Pension Plan, As Administrator of Colleges
of Applied Arts and Technology Pension Plan; Charles
Schwab & Co., Inc, as Custodian for Brent V. Woods
IRA Rollover; Charles Schwab & Co., Inc, as Custodian
of the George William Buck SEP-IRA DTD 04/08/93;
Charles Schwab & Co., Inc, as Custodian of the Peter
Marino IRA Rollover; Clearwater Growth Fund (n/k/a
Clearwater Core Equity Fund); DIA MID CAP Value
Portfolio; Harbor Capital Advisors, Inc.; Harbor Capital Group Trust for Defined Benefit Plans (incorrectly
named as “Harbor Capital Group Trust”); Harbor Mid
Cap Value Fund; J. Goldman & Co., L.P. (incorrectly
named as “Jay Goldman & Co., LP”); J. Goldman, L.P.
(f/k/a Jay Goldman Master Limited Partnership) (incorrectly named as “Jay Goldman Master LP”); John
Hancock Life Insurance Company (USA) as successorin-interest to John Hancock Financial Services, Inc.;
John Hancock Funds II; John Hancock Funds II Equity Income Fund (incorrectly named as “John Jancock
Funds II (Equity-Income Fund)”and “JHF II EquityIncome Fund”); John Hancock Funds II Spectrum Income Fund (incorrectly named as “John Hancock
Funds II (Spectrum Income Fund)” and “JHF II Spectrum Income Fund”); John Hancock Variable Insurance Trust New Income Trust (incorrectly named as
“John Hancock Variable Insurance Trust (F/K/A John
Hancock Trust (New Income Trust),” “John Hancock
Variable Insurance Trust,” and “JHT New Income
Trust”); Linda Molenda; Manulife Asset Management
(US) LLC (n/k/a Manulife Investment Management
(US) LLC); Manulife Invst Ex FDS Corp.-MIX; Manulife Investment Management (f/k/a Manulife Invest-

5a
ments (f/k/a “Manulife Mutual Funds”)); Manulife U.S.
Equity Fund; MassMutual Premier Enhanced Index
Value Fund (currently known as MassMutual Premier
Disciplined Value Fund); MassMutual Premier Funds;
MassMutual Premier Main Street Small/Mid Cap
Fund (f/k/a “MassMutual Premier Main Street Small
Cap Fund”); MassMutual Premier Small Company
Opportunities Fund (currently known as MassMutual
Premier Small Cap Opportunities Fund); MassMutual
Select Diversified Value Fund; MassMutual Select
Funds; MassMutual Select Indexed Equity Fund (currently known as MM S&P 500 Index Fund); MML
Blend Fund; MML Series Investment Fund; MML Series Investment Fund II; Monumental Life Insurance
Company; Monumental Life Insurance Co. F/K/A Peoples Benefit Life Insurance Company; Monumental Life
Insurance Co., as Owner of Teamsters Separate Account (Monumental Life Insurance Company, on Behalf of Separate Account L-32) (incorrectly named as
“Monumental Life Insurance Co., as Owner of Teamsters Separate Account (Monumental Life Insurance
Company, on Behalf of Separate Account L-23)”); OFI
Private Investments, Inc.; Oppenheimer Main Street Select Fund (formerly known as Oppenheimer Main
Street Opportunity Fund); Oppenheimer Main Street
Mid Cap Fund (formerly known as Oppenheimer Main
Street Small Cap Fund); Oppenheimer Variable Account Funds doing business as Oppenheimer Main
Street Small & Mid-Cap Fund/VA (formerly known as
Oppenheimer Main Street Small Cap Fund/VA); OppenheimerFunds, Inc.; optionsXpress, Inc. (n/k/a
Charles Schwab Futures, Inc.); Pacific Select Fund Equity Index PortfolioProShares Ultra S&P500 (incorrectly named as “Pro Shares Ultra S&P 500”); Russell
Investment Company; Russell Investment Group, LLC;
Russell Investments Trust Company (f/k/a “Frank

6a
Russell Trust Company”); Russell U.S. Core Equity
Fund (incorrectly named as “Russell US Core Equity
Fund,” and f/k/a “Russell Equity I Fund” and “Russell
Investment Company Diversified Equity Funds”); Rydex ETF Trust (Guggenheim S&P 500 Pure Value
ETF) (incorrectly named as “Rydex ETF Trust (Rydex
S&P 500 Pure Value ETF)”); Rydex ETF Trust (Guggenheim S&P 500 Equal Weight Consumer Discretionary ETF) (incorrectly named as “Rydex ETF Trust
(Rydex S&P Equal Weight Consumer Discretionary
ETF)”); Rydex ETF Trust (Guggenheim S&P 500
Equal Weight ETF) (incorrectly named as “Rydex ETF
Trust (Rydex S&P Equal Weight ETF)”); Rydex Investments; Rydex Series Funds; Rydex Series Funds
Multi-Hedge Strategies Fund; Rydex Series Funds S&P
500 Pure Value Fund; Rydex Variable S&P 500 Pure
Value Fund; Rydex Variable Trust; Rydex Variable
Trust Multi-Hedge Strategies Fund; SBL Fund Series
H; SBL Fund Series O; Security Global InvestorsRydex/SGI; Security Investors, LLC; Transamerica
Partners Mid Cap Value; Transamerica Partners Mid
Cap Value F/K/A Diversified Investors Portfolios;
Transamerica Mid Cap Value Opportunities (f/k/a
Transamerica Partners Mid Value Portfolio f/k/a
Transamerica Partners Mid-Cap Value Portfolio f/k/a
Diversified Investors Mid-Cap Value Portfolio);
Transamerica Partners Portfolios (f/k/a Diversified Investors Portfolios); Victory 500 Index VIP Series (f/k/a
RS S&P 500 Index Series, incorrectly named as
“Guardian Investors Services LLC and Guardian VC
500 Index Fund, John Doe as Owner of); and Woodmont
Investments Ltd.
ANDREW J. ENTWISTLE
ENTWISTLE & CAPPUCCI LLP
299 Park Avenue

7a
20th Floor
New York, NY 10171
Counsel for GAMCO Asset Management, Inc., The
Public Employees’ Retirement Association of Colorado, and The State Universities Retirement System of
Illinois
MATTHEW D. MCGILL
OSCAR GARZA
DOUGLAS LEVIN
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Ave., NW
Washington, DC 20036
Counsel for Alberta W. Chandler Marital Trust No. 2;
Allegro Associates; Camilla Chandler Family Foundation; Chandis Securities Company; Chandler Trust
No. 1; Chandler Trust No. 2; Dorothy B. Chandler
Marital Trust No. 2; Dorothy B. Chandler Residuary
Trust No. 2; Earl E. Crowe Trust No. 2; Garland
Foundation Trust No. 2; Helen Garland Trust No. 2
(for Gwendolyn Garland Babcock); Helen Garland
Trust No. 2 (for Hillary Duque Garland); Helen Garland Trust No. 2 (for William M. Garland III); HOC
GST Exempt Trust No. 2. FBO Eliza Haskins; HOC
GST Exempt Trust No. 2. FBO John Haskins; HOC
GST Exempt Trust No. 2. FBO Scott Haskins; HOC
Trust No. 2 FBO Eliza Haskins; HOC Trust No. 2
FBO John Haskins; HOC Trust No. 2 FBO Scott
Haskins; Marian Otis Chandler Trust No. 2; May C.
Goodan Trust No. 2; Patricia Crowe Warren Residuary Trust No. 2; Philip Chandler Residuary Trust No.
2; and Ruth C. Von Platen Trust No. 2
MATTHEW L. FORNSHELL
ICE MILLER LLP

8a
250 West Street
Columbus, OH 43215
Counsel for Illinois Municipal Retirement Fund,
School Employees Retirement System of Ohio, Ohio
Public Employees Retirement System, Pensions Reserve Investment Management Board of Massachusetts, Texas Education Agency, and Employee Retirement System of Texas
JOEL W. STERNMAN
KATTEN MUCHIN ROSENMAN LLP
575 Madison Avenue
New York, NY 10022
Counsel for Barbara Alter (individually); Barbara Alter 2002 Declaration of Trust dated 12/12/02; and Barbara Alter as Trustee of Barbara Alter 2002 Declaration of Trust dated 12/12/02; Baron Don & Irene Family Trust 7B-251; Donald Baron and Irene Baron;
BOEING Company Employees Retirement Plans
Master Trust, Current Trustee; Bosau, Rose T., Designated BENE Plan/TOD; Bosau, Robert D., Designated
BENE Plan/TOD; BW Opportunity Partners f/k/a
Talon Opportunity Partners; Rapkin, Marilyn; Cahn,
Kenneth; Cahn, Kenneth (trustee of Dorothy Cahn
Trusts - 1981 and 1982); Chilla, Milan and Milan E
Chilla Cust FPO IRA; Cogent Investment Strategies
Fund, SPC-Class D; Cook Entities - Stanton R Cook
Charitable Remainder Trust; Cook Entities - Scott
Cook; Diamond - John B. Diamond Declaration of
Trust Dated April 15, 2010; Diamond - Terry Diamond, as Trustee U/W of Sol Diamond Dated December 4, 1972; Diamond - Terry Diamond, Beneficiary
Terry Diamond IRA; Diamond - The Diamond Family Foundation; Diamond - The Terry Diamond Trust
Dated May 7, 1986; Diamond Consolidated L.P.; Di-

9a
amond, Marilyn R. Trust Dated November 11, 1988;
Ferris Trading; Fiduciary Management Association Vorisek, Kathryn, as Trustee FBO Robert Wesley
Thornburgh; Fiduciary Mgt Assoc. LLC 401k FBO
Robert Wesley Thornburgh; Fuller - Trust by Alyce
Tuttle Fuller U/A Dtd 10/3/03; Graff Profit Sharing
Plan; Graff, Michael; Greenspahn, David; HFF 1
(Hite Capital); HFR Asset Mgmt. LLC; HFR RVA
Combined Master TR; Jore - Wendt Trust (Lloyd)
(Jore, Bette); Kirkpatrick, Bruce; Kovler, John (GS);
Kovler, John (Ret); Linnen - WPML Limited Partnership (Linnen, Joe); Madigan Trust (John); Madigan,
Griffith , individually and as custodian of Griffith Patrick Madigan UTMA WI; Madigan, John (as Trustee
of the John W. Madigan Trust U/A DTD 5/15/1998));
Madigan, John (individually);
Madigan, Mark;
Madigan, Stephanie;
Madison Street Fund LP;
Metzner Family Foundation 1M-579; Mark Metzger;
Perry Partners LP; Rumsfeld, Donald (Terry Robbins); Salvation Army Central Territory; Schuster,
Lisa/ Estate of Beverly Perry; Waterman Broadcasting Employee Profit Sharing Plan; Waterman, Bernard and Edith; WHI Growth Fund; William Blair
Company; Wolverine Convertible Arbitrage Fund
(WCAF); Wolverine Trading (WT).
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND, WHARTON
& GARRISON LLP
2001 K Street, NW
Washington, DC 20006
ANDREW G. GORDON
PAUL, WEISS, RIFKIND, WHARTON
& GARRISON LLP
1285 Avenue of the Americas

10a
New York, NY 10019
Counsel for Citibank, N.A. as Custodian for Prism
Partners Offshore; Citibank, National Association, in
its Individual and Custodial Capacities; Citigroup
Global Markets, Inc.; Citigroup Pension Plan Trust,
and its Trustee, the Bank of New York Mellon, in its
Capacity as Trustee thereof; and Citigroup Securities
Services, Inc.
ALAN J. STONE
ANDREW M. LEBLANC
MILBANK LLP
55 Hudson Yards
New York, NY 10001
Counsel for Amalgamated Bank; Barclays Bank PLC;
Barclays Capital Inc.; Barclays Capital Securities
Ltd.; BMO Nesbitt Burns Employee Co-Investment
Fund I (U.S.) L.P.; BMO Nesbitt Burns Employee CoInvestment Fund I Management (U.S.) Inc.; BMO
Nesbitt Burns Inc.; Bank of Montreal Holding Inc. (as
successor in interest to BMO Nesbitt Burns Trading
Corp. S.A.); BMO Nesbitt Burns U.S. Blocker Inc.;
BNP Paribas Securities Corp.; Canadian Imperial
Holdings, Inc.; CIBC World Markets Corp.; CIBC
World Markets, Inc.; Commerz Markets LLC; Commerzbank AG; Cooper Neff Advisors, Inc.; Credit
Suisse (USA), Inc.; Credit Suisse Securities (Europe)
Limited; Credit Suisse Securities (USA) LLC; D. E.
Shaw Valence Portfolios, L.L.C.; Deutsche Bank AG;
Deutsche Bank AG, Filiale Amsterdam; Goldman
Sachs Execution & Clearing, L.P.; Goldman Sachs International Holdings LLC; Goldman Sachs & Co. LLC,
formerly known as Goldman, Sachs & Co.; GS Investment Strategies LLC; Homeland Insurance Co. of New
York; Lyxor/Canyon Value Realization Fund Ltd.;

11a
Mill Shares Holdings (U.S.) Ltd. (formerly Mill Shares
Holdings (Bermuda) Ltd.); Neuberger Berman BD
LLC, formerly known as Neuberger Berman LLC;
OneBeacon Insurance Savings Plan (a/k/a OneBeacon
Insurance Savings Plan – Equity 401k and OneBeacon
Insurance Savings Plan – Fully Managed); OneBeacon Pension Plan (f/k/a OneBeacon Insurance Pension
Plan); PNC Bank, National Association; RBC Capital
Markets Arbitrage, S.A., formerly known as RBC Capital Markets Arbitrage, LLC; RBC Capital Markets,
LLC; RBC Global Asset Management, Inc.; RBC
O’Shaughnessy U.S. Value Fund; Royal Bank of Canada; Royal Trust Corporation of Canada; Schultze Asset Management, LP, formerly known as Schultze Asset Management, LLC; Scotia Capital (USA) Inc.; Scotia Capital Inc.; SG Americas Securities, LLC; State
Street Bank and Trust Company; State Street Bank
Luxembourg, S.A.; State Street Global Advisors (Japan) Co., Ltd.; State Street Global Advisors, Inc.; State
Street Trust and Banking Company, Limited; Swiss
American Corporation; Swiss American Securities,
Inc.; TD Ameritrade Clearing, Inc.; The Bank of Nova
Scotia; UBS AG; UBS Financial Services, Inc.; UBS
Asset Management (Americas) Inc., formerly known
as UBS Global Asset Management (Americas) Inc.;
UBS Global Asset Management (US) Inc.; UBS
O’Connor LLC; UBS Securities LLC; MUFG Union
Bank, N.A., formerly known as Union Bank, N.A.;
Variable Insurance Products Fund II – Index 500
Portfolio; and Workers Compensation Board
SABIN WILLETT
MICHAEL C. D’AGOSTINO
MORGAN LEWIS & BOCKIUS LLP
One Federal Street
Boston, MA 02110

12a
Counsel for Aetna, Inc.; BNA Employees’ Retirement
Plan, incorrectly named as “Bureau of Natl Affairs
Ret”; Sharon Christhilf; The Church Pension Fund, in
its individual and trustee capacities; Los Angeles City
Employees’ Retirement System; Los Angeles Fire and
Police Pension System; DL Partners, LP; Great-West
Life & Annuity Insurance Company; Maxim Foreign
Equity Portfolio; Maxim Series Fund, Inc.(n/k/a
Great-West Funds, Inc.); L3Harris Retirement Savings
Plan Master Trust, f/k/a Harris Corporation Master
Trust, incorrectly named as “Harris Corp. Retirement
Trust”; Teachers Retirement System of the State of Illinois; VY T. Rowe Price Equity Income Portfolio
(f/k/a ING T. Rowe Price Equity Income Portfolio), a
series of Voya Investors Trust (f/k/a ING Investors
Trust); The Kraft Group; Laborers’ District Council &
Contractors Pension Fund of Ohio; QS S&P 500 Index
Fund (f/k/a Legg Mason Batterymarch Financial
Management S&P 500 Index Fund), a series of the
Legg Mason Partners Equity Trust, incorrectly named
as “Legg Mason Partners”; Madison Square Investors
Large-Cap Enhanced Index Fund LP (f/k/a NYLIMQS Large Cap Enhanced Fund LP), incorrectly named
as “NYLIM-QS Large Cap Enhanced Fund LP” and
also incorrectly named as “Madison Square Investors
Large-Cap Enhanced Index Collective Index Fund
f/k/a NYLIM Large-Cap Enhanced Index Collective
Fund”; New York Life Insurance Company; Maryland
State Retirement and Pension System; Milliken Retirement Plan, incorrectly named as “Miliken Stock
Fund (7R)” and also incorrectly named as “Miliken
Stock Fund (7R) T. Rowe Price Trust Co.”; National
Railroad Retirement Investment Trust; NorthShore
University HealthSystem Second Century Fund;
NorthShore University HealthSystem, as Owner of the
NorthShore University HealthSystem Second Century

13a
Fund; Northwestern Mutual Series Fund, Inc.; Northwestern Mutual Life Insurance Company; Ohio National Fund, Inc., incorrectly named as “Ohio Natl
Fund, Inc. Strategic Value Portfolio” and as “John
Doe, as Owner of Ohio Natl Fund, Inc. Strategic Value
Portfolio Ohio National Financial Services”; Dorothy
D. Park; Advanced Series Trust - AST QMA US Equity Alpha Portfolio; Prudential Insurance Company of
America, incorrectly named as “Prudential Insurance
Co. of America (PMFIM), a/k/a PICA- Prudential Insurance Company Separate Account” and as “Prudential Inusrance Co. of America (PMFIM)” and also as
“Prudential Insurance Co. of America (PDI)”; PGIM,
Inc. (f/k/a Prudential Investment Management, Inc.);
Prudential Retirement Insurance and Annuity Company; Stock Index Portfolio, a Series of the Prudential
Series Fund, Inc.; Conservative Balanced Portfolio, a
Series of the Prudential Series Fund, Inc.; Prudential
Investment Portfolios 3 – Prudential QMA Strategic
Value Fund (f/k/a “Strategic Partners Opportunity
Funds”); Prudential Investment Portfolios 8 – Prudential QMA Strategic Value Fund; Redwood Master
Fund, Ltd.; Hanna Jonas Miller; Ruth McCormick
Tankersley Revocable Trust, Dated October 6, 1992, incorrectly named as Ruth McCormick Tankersley, as
Trustee of the 10/06/92 Ruth McCormick Tankersely
Revocable Trust, and also incorrectly named as The
10/06/92 Ruth McCormick Tankersley Revocable
Trust,” also incorrectly named as “Ruth McCormick
Tankersley Trust Dated 12/03/1990,” and also incorrectly named as “The 10/06/92 Ruth McCormick Tankersley Revocable Trust”; Ruth McCormick Tankersley;
Ellen Johnson Twaddell; William Sanderson
Twaddell; Tiffany Tankersley; Trustees of the Walters
Art Gallery, Inc., d/b/a the Walters Art Museum, incorrectly named as “Walters Trustees Consolidated Fund

14a
– Fixed Income”; Vermont State Employees Retirement System; Board of Administration of the Water
and Power Employees’ Retirement Plan of the City of
Los Angeles; and Weiss Multi-Strategy Partners LLC
DANIEL L. CANTOR
DANIEL S. SHAMAH
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, NY 10036
Counsel for Bank of America, N.A; Bank of America,
N.A. / LaSalle Bank, N.A.; Bank of America Corporation; Bank of America; Bank of America Structured
Research; Banc of America Securities LLC; Bank of
America N.A./ GWIM Trust Operations; BNP Paribas
Prime Brokerage Inc.; Columbia Management Group;
Forrestal Funding Master Trust; LaSalle Bank, N.A.;
Merrill Lynch, Pierce, Fenner & Smith Incorporated;
Merrill Lynch, Pierce, Fenner & Smith as successor to
Banc of America Securities LLC, Securities Lending
Services; Merrill Lynch; Merrill Lynch & Co., Inc.;
Merrill Lynch Capital Corp.; Merrill Lynch Financial
Markets, Inc.; Merrill Lynch Trust Co.; Merrill Lynch,
Pierce, Fenner & Smith, Inc. – Safekeeping; Merrill
Lynch, Pierce, Fenner & Smith, Inc. – Securities Lending; 1IA SPX1; US Trust Co. N.A.; and U.S. Trust
Company of Delaware
DAVID N. DUNN
PHILLIPS, DUNN, SHRIVER
& CARROLL, P.C.
147 Western Avenue
Brattleboro, VT 05301

15a
Counsel for Ciri Gillespie, Cara-Leigh Gillespie-Wilson,
John and Carol Jansson, Kirsten & John Gibbs, Walter
Lang, Joel Marks, Steven and Susan Miller, Richard
DeFoe, Kevin Domkowski, Richard & Lynda Freedman, Paul Gerken, Susan Gail Harwood Trust, Peter &
Janice Howe, William H. Johnson, KWK Management,
McConnell Foundation, Lili Charlotte Sarnoff, Spindle
Limited Partnership, Maud P. Barton Revocable Trust,
Cornelia Tobey, Richard Triest, Jerold Jay Wichtel,
James & Eileen Wirth, Eileen S. Buckley, Willowlake
Development, and Lu Ann Sodano
STEPHEN L. RATNER
DAVID A. PICON
RUSSELL T. GORKIN
PROSKAUER ROSE LLP
11 Times Square
New York, NY 10036
Counsel for 1199SEIU Health Care Employees Pension Fund; 1199SEIU Home Care Employees Fund;
1199SEIU Greater New York Pension Fund; A.G. Edwards & Sons, LLC; A.G. Edwards Private Equity
Partners III, L.P.; A.G. Edwards, Inc.; AG Edwards &
Sons, Inc.; Baldwin Enterprises LLC (formerly known
as Baldwin Enterprises, Inc.); The Bank of New York
Mellon Corporation Retirement Plans Master Trust;
BNY Mellon Investment Servicing (US) Inc. (f/k/a
PFPC, Inc.); BNY Mellon Trust of Delaware; BNY
Mellon, N.A., as Successor-In-Interest to Mellon Trust
of New England, N.A.; Cede & Co.; Evergreen Asset
Management Corp.; First Clearing, LLC; Jefferies LLC
(formerly known as Jefferies & Company, Inc. and
which in 2011 merged with Jefferies Bache Securities,
LLC, with Jefferies & Company, Inc. as the surviving
entity); Mellon Bank N.A. Employees Benefit Collec-

16a
tive Investment Plan; Mellon Bank, N.A. Employee
Benefit Plan; Oppenheimer & Co., Inc.; Paper Products, Miscellaneous Chauffeurs, Warehousemen, Helpers, Messengers, Production and Office Workers Local
27 Pension Fund; Pershing LLC; Reed Elsevier U.S.
Retirement Plan; Reliance Trust Company; Strategic
Funds, Inc.; The Bank of New York Mellon; The Bank
of New York Mellon as trustee of The Bank of New
York Mellon Employee Benefit Collective Investment
Fund Plan f/k/a Mellon Bank, N.A. Employee Benefit
Collective Investment Fund Plan; The Bank of New
York Mellon as trustee of The Collective Trust of The
Bank of New York; The Bank of New York Mellon as
trustee of the PG&E Nuclear Facilities Qualified
CPUC Decommissioning Master Trust; The Bank of
New York Mellon as trustee of the PG&E Postretirement Medical Plan Trust; The Bank of New York
Mellon as trustee of the R.E. Ginna Nuclear Power
Plant LLC Master Decommissioning Trust; The Depository Trust & Clearing Corporation; The Depository
Trust Company; The Dreyfus Corporation; and Wachovia Bank, N.A.
DOUGLAS HALLWARD-DRIEMEIER
ROPES & GRAY LLP
2099 Pennsylvania Ave., NW
Washington, DC 20006-6807
Counsel for APG Asset Management US Inc. F/K/A
ABP Investments US, Inc. (incorrectly named as
ABP); Harvard University; Harvard Management Co.;
President and Fellows of Harvard College; LPL Financial LLC; Marcia Tingley; Mutual of America Investment Corp.; Nora Morgenstern; Stichting Pensioenfonds van de ABN AMRO Bank N.V.; Stichting
Pensioenfonds ABP; Stichting Pensioenfonds Hoogovens; Stichting Pensioenfonds Zorg En Welzijn; Sticht-

17a
ing Shell Pensioenfonds; Tribune Company Master
Retirement Savings Trust; Tribune Employee Stock
Ownership Plan; Times Mirror Savings Plan; Tribune
Company 401(k) Savings Plan; Trustees of Boston College; and Welch & Forbes LLC
GARY STEIN
WILLIAM H. GUSSMAN, JR.
SCHULTE ROTH & ZABEL LLP
919 Third Avenue
New York, NY 10022
Counsel for Adage Capital Advisors Long, Adage Capital Partners LP, Cougar Trading, LLC, Del Mar Master Fund, Ltd., DiMaio Ahmad Capital LLC, Emanuel
E. Geduld 2005 Family Trust, GPC LX LLC, Gryphon
Hidden Values VIII Ltd., Guggenheim Advisors, LLC,
Guggenheim Portfolio Company XXXI, LLC, Guggenheim Portfolio LIX, LLC, Halcyon Asset Management
LLC, Halcyon Diversified Fund LP, Halcyon Fund,
LP, Halcyon Master Fund LP, Harvest AA Capital
LP, Harvest Capital LP, Howard Berkowitz, Hudson
Bay Fund LP, Hudson Bay Master Fund Ltd., Hussman Econometrics Advisors, Inc., Hussman Investment Trust, Hussman Strategic Growth Fund, John
Splain, as Trustee of the Hussman Investment Trust,
Lispenard Street Credit Fund LLP, Lispenard Street
Credit Master Fund, Lispenard Street Credit Master
Fund Ltd., Lockheed Martin Corporation, Lockheed
Martin Corporation Master Retirement Trust, New
Americans LLC, Pond View Credit (Master) LP, QVT
Fund LP, Stark Global Opportunities Master Fund
Ltd., Stark Investments, Stark Master Fund Ltd.,
Swiss Re Financial Products Corp., TOA Reinsurance
Company of America, Towerview LLC, Twin Securities, Inc., and Wabash/Harvest Partners LP

